<html>
<title> - PROTECTING AMERICA FROM A BAD DEAL: ENDING U.S. PARTICIPATION IN THE NUCLEAR AGREEMENT WITH IRAN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 PROTECTING AMERICA FROM A BAD DEAL: ENDING U.S. PARTICIPATION IN THE 
                      NUCLEAR AGREEMENT WITH IRAN

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 6, 2018

                               __________

                           Serial No. 115-84

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-273 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bfcebf4dbf8eee8eff3fef7ebb5f8f4f6b5">[email&#160;protected]</a>                       
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna, General Counsel
                  Ari Wisch, Professional Staff Member
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Minority Member
Justin Amash, Michigan               Peter Welch, Vermont
Paul A. Gosar, Arizona               Mark DeSaulnier, California
Virginia Foxx, North Carolina        Jimmy Gomez, California
Jody B. Hice, Georgia                John P. Sarbanes, Maryland
James Comer, Kentucky                Vacancy
                                     Vacancy
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 6, 2018.....................................     1

                               WITNESSES

Mr. Richard Goldberg, Senior Advisor, Foundation for Defense of 
  Democracies
    Oral Statement...............................................     6
    Written Statement............................................     9
Mr. David Albright, President, Institute for Science and 
  International Security
    Oral Statement...............................................    21
    Written Statement............................................    23
Mr. Michael Pregent, Senior Fellow, Hudson Institute
    Oral Statement...............................................    37
    Written Statement............................................    40
Jim Walsh, Ph.D., Senior Research Associate, Security Studies 
  Program, Massachusetts Institute of technology
    Oral Statement...............................................    45
    Written Statement............................................    47
Michael Rubin, Ph.D., Resident Scholar, American Enterprise 
  Institute
    Oral Statement...............................................    66
    Written Statement............................................    68

 
 PROTECTING AMERICA FROM A BAD DEAL: ENDING U.S. PARTICIPATION IN THE 
                      NUCLEAR AGREEMENT WITH IRAN

                              ----------                              


                        Wednesday, June 6, 2018

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:14 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Russell, Amash, Hice, 
Comer, and Welch.
    Also Present: Representatives Zeldin and Donovan.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    May 8, 2018, President Trump made one of the most momentous 
decisions of his Presidency by terminating the United States' 
participation in the Joint Comprehensive Plan of Action, or 
JCPOA, better known as the Iran deal, and he decided to 
immediately begin reimposing sanctions on Iran.
    The President made the right decision. He saw this deal for 
what it was, calling it, quote, ``one of the worst and most 
one-sided transactions the United States has ever entered 
into,'' end quote.
    The Iran deal has empowered the Iranian regime and has 
fueled Iran's ambitions for regional dominance. It's not hard 
to see why. The deal provided Iran with billions upon billions 
of dollars in upfront sanctions relief, including airlifting 
$1.7 billion in cash, effectively to the Iran Revolutionary 
Guard Corps.
    To obtain this financial windfall, Iran agreed to a 
temporary set of restrictions on its nuclear program that 
sunset after 10 and, in some cases, 15 years. But by allowing 
Iran a vast nuclear infrastructure and allowing Iran to reduce 
its breakout time to almost zero, the deal paved the way for 
Iran to have a bomb. And the deal's fundamentally flawed 
inspection regime allows Iran to block inspectors from 
accessing military sites, leaving the IAEA incapable of 
verifying if Iran is even complying with the deal.
    The agreement did nothing to stop Iran's ballistic missile 
program or its support for terrorism. Now Tehran is using the 
financial windfall from the deal to spread money to terrorists 
and insurgents throughout the Middle East.
    Iran and its Islamic Revolutionary Guard Corps are firing 
rockets into Israel, propping up the Assad government and its 
butchery in Syria, supporting anti-American Shiite militias in 
Iraq, bolstering Hezbollah to unprecedented levels of strength 
in Lebanon, arming Houthi rebels in Yemen, and backing the 
Taliban in Afghanistan.
    And thanks to Israeli intelligence revealed recently by 
Prime Minister Benjamin Netanyahu, we now know without question 
that the Iran deal was built on lies. As part of the deal, 
Iran's leaders promised never to build a nuclear weapon and to 
come clean to the IAEA about their past nuclear activities.
    Iran's Foreign Minister, Javad Zarif, said, Iran, quote, 
``didn't have any program to develop nuclear weapons,'' and 
considered them, quote, ``both irrational as well as immoral,'' 
end quote.
    But the documents obtained by Israel proved that Iran had a 
nuclear weapons programs, that Iran brazenly lied by denying 
it. And then, even after entering the JCPOA, Iran kept a secret 
archive of tens of thousands of files on its nuclear weapons 
program.
    Now, when the Iran deal was first announced, President 
Obama's advisor, Ben Rhodes, drew on his MFA in writing to 
create a, quote, ``echo chamber of false narratives to try to 
sell the agreement.'' And in spite overwhelming evidence that 
the deal wasn't working and Iran was acting in bad faith, the 
foreign policy establishment and the enablers in the press are 
again spinning a web of deception to try to undermine President 
Trump's decision.
    They claim, his critics, that he, quote, violated the JCPOA 
by withdrawing. In reality, the Obama State Department admitted 
in a letter to then-Congressman Mike Pompeo that, quote, ``the 
JCPOA is not a treaty or an executive agreement and is not a 
signed document.''
    The JCPOA reflects political commitments between Iran the 
P5+1 and the EU. The deal would never have been ratified as a 
binding treaty because it was opposed by bipartisan majorities 
of both the House and Senate, including Senator Chuck Schumer 
and the Democratic ranking members of the House Foreign Affairs 
Committee and Senate Foreign Relations Committee.
    The Iran deal was effectively of a nonbinding commitment 
between President Obama and Ayatollah Khamenei, which imposes 
no obligation upon a successor President to follow it.
    As Harvard's Jack Goldsmith writes, ``You don't get to make 
an enormously consequential international deal in the face of 
opposition from Congress,'' and from the public, I might add, 
``and skirt the need for congressional consent by making the 
agreement nonbinding under domestic and international law and 
then complain about a subsequent withdrawal,'' end quote.
    President Trump's opponents claim his decision was reckless 
and leaves America isolated. The truth is that the 
administration conducted a lengthy review of the JCPOA, held 
extensive negotiations with European allies to try to correct 
its many flaws, and set a clear deadline for results.
    Now, Secretary Pompeo has presented a new strategy in which 
he specified the conditions for a new agreement, including a 
complete stop to uranium enrichment, a full accounting of past 
nuclear activity, unqualified access for IAEA inspectors, 
halting ballistic missile activity, ending support for 
terrorism, and releasing all hostages.
    The door remains open for Europe to work with the U.S. to 
reach a better deal that addresses these issues, but instead of 
reaping the spoils of the sanctions relief, Iran will now face 
unprecedented financial pressure from U.S. sanctions, and 
companies around the globe will have to decide whether they 
would rather do business with the world's biggest economy or 
the world's largest state sponsor of terrorism.
    In contrast to the narrative that withdrawing from the deal 
leaves America isolated, many countries in the Middle East 
strongly support President Trump's approach, including Israel, 
Saudi Arabia, the UAE, and Bahrain. They are the ones who are 
most at risk from Iranian misconduct.
    By ending U.S. participation in the Iran deal, President 
Trump demonstrated that American strength and leadership are 
back again. We should all be thankful that the President kept 
his word. He campaigned on this being a bad deal, said he would 
terminate it if they couldn't get better terms, and he followed 
through on that.
    And I would also like to point out, since I did these 
remarks, there has been reports about whether or not Iran was 
in fact able to access the U.S. financial system. That was 
supposed to be a no-go.
    We had testimony during the pendency and when the deal was 
agreed to from the Obama administration saying that that was 
not going to happen. This committee obviously is going to want 
to investigate what happened there because that is a really big 
deal.
    But I thank the witnesses for being here. I look forward to 
your testimony. And it is my pleasure, in lieu of my friend 
from Massachusetts, I recognize for his opening statement, my 
friend from Vermont, Mr. Lynch.
    Mr. Welch. Welch.
    Mr. DeSantis. Mr. Welch. I knew that.
    Mr. Welch. You were wishing. And we all are. We miss 
Congressman Lynch. But thank you, and I thank the witnesses.
    And, Mr. Chairman, thanks for having this very important 
hearing. And I just want to say at the outset, I listened very 
carefully to your statement, and I know that it reflects not 
just your views but the views of many people who oppose the 
agreement from the beginning.
    What I did not hear in your statement was what's next. What 
is the Trump plan? The President has not laid that out. And he 
is playing a game of very high stakes poker with American 
national security, with our relationships with our allies.
    President Trump's decision to withdraw from the Iran 
nuclear agreement, painstakingly negotiated with our best 
allies--the United Kingdom, France, Germany, and even China and 
Russia, who I wouldn't classify as our best friends; they are 
frenemies, in this case, but they cooperated with us to get 
this agreement--in my view and the views of many, undermines 
national security, and it inflames tensions in war zones like 
Syria Lebanon and Yemen.
    While the Iran nuclear agreement did not address many of 
the issues that you expressed and for which I share concern, it 
did address one. It required Iran to cease and desist from 
active development of nuclear weapons. That is a huge strategic 
achievement.
    Within the four corners of the document, its sole purpose 
was to ensure, quote, ``under no circumstances will Iran ever 
seek, develop, or acquire any nuclear weapons.'' And it did 
also set forth a system of third-party verification. This was 
no ``trust but verify.'' This was distrust, verify, distrust, 
verify immediately.
    Based on the robust on-the-ground inspections and 
verification regime mandated by the agreement, the IAEA has 
continually reported that Iran has abided by the significant 
constraints on its nuclear program. And I don't believe the 
President really challenged that. According to the IAEA's most 
recent monitoring report, Iran has refrained from producing or 
retaining uranium enriched at levels greater than 3.67 percent, 
far less than the approximately 90 percent enrichment level of 
weapons grade uranium and 20 percent level of the uranium that 
Iran had previously stockpiled.
    The IAEA has also verified that, in compliance with the 
agreement, there are no more than 5,060 centrifuges at Natanz 
fuel enrichment plant, and that is in accordance with Iran's 
commitment to dismantle two-thirds of the centrifuges to enrich 
uranium.
    So essentially we have got a situation here where all of 
the experts are in agreement that as far of the four corners of 
the verification program and compliance with the agreement, 
Iran has been in compliance. None other than Defense Secretary 
Mattis, widely respected on both sides of the aisle, testified 
before the Senate Armed Services Committee in April of this 
year that the Iran nuclear agreement, and I quote, ``is written 
almost with an assumption that Iran would try to cheat,'' that 
Iran would try to cheat.
    There is no trust on the side of the U.S. It is all about 
verification. So the verification, he said, what is in there, 
is actually pretty robust.
    If President Trump were to get a similar agreement and 
similar results in his meeting with North Korea's Kim Jong-un 
later this month, it would make the world safer. In my view, I 
hope he is successful. We will see. But based on his public 
position and statements, President Trump would likely walk away 
from such a deal.
    The U.S. withdrawal from the Iran nuclear deal has, in my 
view, and the view of many others, has made the world less safe 
and probably increased the likelihood of military conflict with 
Iran.
    Iran has indicated it will enhance its uranium enrichment 
capacity. And just yesterday, Iran's Atomic Energy Organization 
announced that Iran has completed a new centrifuge assembly 
center at the Natanz plant and would increase its capacity to 
produce uranium hexafluoride to supply its centrifuges.
    Our allies, France, Germany, and the United Kingdom are 
trying to uphold the Iran nuclear agreement without us, but 
they face the Hobson's Choice, as you said, Mr. Chairman. And 
the potential of U.S. sanctions has significant potential to 
hurt our closest allies. My view, not a good thing.
    In the meantime, the President has not provided the 
American people or Congress with any information suggesting he 
has a realistic plan to replace the Iran nuclear agreement that 
he just ripped up. And I will be very interested in hearing 
from the witnesses as to whether you are aware of a plan to 
proceed in the absence of the one we just ripped up.
    However, the words and actions of his closest advisors, 
President Trump's closest advisors, give us a clue as to the 
President's ultimate goal. And it is a fair question. Regime 
change.
    In January 2018, prior to becoming the President's National 
Security Advisor, Mr. Bolton, during an interview on FOX News, 
said that, quote, ``our goal should be regime change in Iran.'' 
That's what he said.
    On May 5th, just 3 days before the United States withdrew 
the Iran nuclear deal, Rudy Giuliani, the President's lawyer 
confirmed that the President is, quote, ``is as committed to 
regime change as we are.''
    If regime change is the intended goal of the Trump 
administration, I will give them this: That is a clear policy. 
Reckless, but clear. Is that their policy?
    And I would be interested in hearing from witnesses as to 
your view on that.
    It's imperative that the administration change its 
direction and work with Congress, along with our European 
partners, to mitigate the very destabilizing consequences of 
our withdrawal from the Iran nuclear agreement.
    I thank the witnesses and look forward to your testimony. 
Thank you, Mr. Chairman.
    Mr. DeSantis. I thank the gentleman from Vermont.
    I am pleased to introduce our witnesses today. We have Rich 
Goldberg, senior advisor at the Foundation for Defense of 
Democracies. We've got David Albright, president of the 
Institute for Science and International Security; Michael 
Pregent, senior fellow at the Hudson Institute; Dr. Jim Walsh, 
senior research associate at MIT's Security Studies Program; 
and Dr. Michael Rubin, resident scholar at the American 
Enterprise Institute. Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So if you can please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony for 5 minutes. Your entire written statement will be 
made a part of the record. As a reminder, the clock in front of 
you shows your remaining time. The light will turn yellow when 
you have 30 seconds left and red when your time is up. If you 
hear me banging this a little softly, that means wrap it up.
    Please also remember to press the button to turn on your 
microphone before speaking.
    And, with that, I will recognize Mr. Goldberg for 5 
minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF RICHARD GOLDBERG

    Mr. Goldberg. Mr. Chairman, Mr. Ranking Member thank you so 
much. It's a real honor to be here. It was just a few years ago 
that I was sitting behind the dais behind Members advising them 
on how to grill people like me, so go easy.
    I'll start off basically summarizing my initial remarks, 
and I would really like to get to recommendations. But I will 
say this. For many, many years, we worked in an incredibly 
bipartisan way to advance Iran policy in the Congress, in the 
House and the Senate.
    Bills moved in overwhelmingly bipartisan fashion to not 
only stop the pursuit of nuclear weapons by the Islamic 
Republic but to help the people of Iran pursue human rights, 
dignity, democracy inside their country, to ensure that Iran no 
longer was a state sponsor of terror, and to defend our allies 
from Iran's proliferation, from their missile development, and 
from their terrorism.
    The idea that this has become very partisan and that things 
that I might say or that others might say during the hearing 
become partisan is a more recent phenomenon. And it is my hope 
that, in this post-JCPOA environment, while it might take a 
little time, that we find ways to come together bipartisanly to 
move things forward for the good of the American people, for 
our country, and for our allies.
    As for the JCPOA, I would say that the JCPOA, the decision 
to move away from the Iran deal to withdraw by the President 
was both legally justified and necessary from a national 
security perspective. Legally justified.
    Mr. Chairman, you summarized it well. Many legal scholars 
at the time made it very clear that the JCPOA was a political 
commitment, not an executive agreement, certainly not a treaty. 
A political commitment is politically binding but not legally 
binding. This was confirmed just a couple weeks ago on a panel 
where Jake Sullivan was speaking, a former senior official 
during the previous administration and a key member of the 
negotiating team that led to the JCPOA.
    Now, some might say, well, that is true, but there was a 
U.N. Security Council resolution, 2231, that referenced the 
JCPOA and, therefore, made this international law, made this 
legally binding for the United States.
    That, again, is not true. If you really read the 
resolution, and this was noted at the time, again, by many 
legal scholars, I note in my testimony, it uses words like 
``endorses,'' ``urges,'' ``calls upon.'' These are nonbinding 
words for the U.N. Security Council. Truly the only thing that 
was very proactive in one of its clauses, No. 27, it decides 
that as the council decides that the JCPOA is not a matter of 
international law.
    And so this is a political commitment. You might disagree 
with the decision of the President to withdraw, but from a 
legal perspective, domestically and internationally, this was 
simply a political commitment. And when we have a change in 
leadership in our democracy, many times we see a change in our 
policies.
    If you recall back in 2009 when President Obama in his 
first year in office decided to change our foreign policy, our 
national security policy, with respect to two European allies, 
Poland and the Czech Republic.
    Just the previous year, his predecessor, President Bush, 
had signed executive agreements with those two countries. Those 
two countries had staked their politics domestically and lot of 
their security risks on a strategy for missile defense in 
Europe.
    President Obama came in. His team had a different direction 
that he wanted to pursue, and they did so. They withdrew from 
an executive agreement, something that had carried more weight 
than the JCPOA.
    Now, at the time, Brussels wasn't screaming and protesting. 
There weren't EU Council resolutions deciding, how do we stop 
the Obama administration from changing the missile defense 
policy of Europe?
    There was outcry of Republicans in the Congress. I remember 
there were attempts in Appropriations and Armed Services to 
pass amendments to stop what President Obama was doing. The 
Republicans did not hold the majority at the time. Those 
efforts failed, and we moved on. And we moved on together, and 
together we have continued to do as best we can in bipartisan 
efforts on missile defense.
    From a national security perspective, the JCPOA failed in 
many ways, well beyond those that we talk about. We talked 
about the three elements that were the elements that the 
President was trying to negotiate with the E3, the so-called 
fix to the JCPOA. We talked about the fact that the agreement 
never covered ballistic missiles, the delivery systems to carry 
nuclear weapons.
    How do you have an agreement that is supposed to stop the 
advancement of a nuclear weapons program without covering 
ballistic missiles? We have talked about that ad nauseam.
    We talked about the sunsets. Mr. Chairman, you referenced 
them. Temporary restrictions on Iran's nuclear program. We gave 
away our toughest sanctions for, in some cases, temporary 
restrictions on the nuclear program.
    And, of course, as my colleague to the left of me will 
probably touch on--or could--he has written extensively on it, 
we have talked about the lack of inspections in military sites, 
the inability by the IAEA to verify Section T of the agreement 
that has to do with weaponization activities.
    Even though, as Mr. Ranking Member, you referenced, the 
IAEA would say that on the technical levels of some of the 
concessions that Iran made, Iran was in agreement with those, 
was in compliance, he could not say with confidence that the 
IAEA was capable of verifying Section T. That was an issue that 
Ambassador Haley had raised several times.
    But those three issues, though they were the bulk of what 
was being negotiated between the United States and the E3, that 
wasn't the fundamental flaw of the deal.
    The fundamental flaw was that we handcuffed ourselves from 
dealing in a nonmilitary way with all of the rest of Iran's 
illicit activities.
    The idea that we were allowed to impose nonnuclear 
sanctions, that nothing in the deal would prohibit us from 
imposing nonnuclear sanctions was a myth.
    Think about it. The banks that were helping Bashar al-
Assad, loaned money, credit lines, never were we allowed to 
impose sanctions on them again. They were in Annex 2 of the 
JCPOA. Total immunity for Iranian banks to finance Bashar al-
Assad. Total immunity for Iran to finance Hezbollah and 
continue the war in Syria. Total immunity for Iran to set up 
bases in Syria and Lebanon and to start converting rockets of 
Hezbollah into precision-guided munitions to target our allies 
in Israel. Total immunity to continue to arm the Houthis in 
Yemen with ballistic missiles that could target Saudi Arabia or 
even commercial merchant vessels that are transiting. This was 
really the fatal flaw. We handcuffed ourselves because to do 
any of these sort of nonnuclear sanctions to touch Annex 2, the 
Europeans would say, would drive the Iranians out of the deal.
    And so, in some ways, Mr. Ranking Member, I disagree with 
your statement. The JCPOA was making war more likely, not less. 
We had a limited our nonlethal options. We had taken our 
coercive economic options off the table. All we were left with 
was military deterrence. And that's why, leading up to the 
decision of the President, there were so many reports about the 
need to use military force in Syria, elsewhere, and beyond.
    I will say: I have a number of recommendations for the way 
ahead. I hope that we have time to discuss them today, Mr. 
Chairman. They have to do with the strategy which is threefold, 
political warfare, economic warfare, and strong military 
deterrence. And I hope we can do that in a bipartisan fashion.
    [Prepared statement of Mr. Goldberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. I thank the gentleman. Your time is expired.
    Mr. Albright, you are up for 5 minutes.

                  STATEMENT OF DAVID ALBRIGHT

    Mr. Albright. Thank you, Chairman DeSantis and Ranking 
Member Welch and other members of the committee for holding 
this hearing and inviting me to testify.
    Although the administration in the E3, Germany and Britain 
and France, could not agree on a document to fix the 
deficiencies of the Iran nuclear deal, they did agree on many 
issues. Rather quickly in the negotiations, the E3 and the 
Trump administration reached agreements on the need for the 
IAEA to improve its inspections in Iran, particularly visiting 
military sites associated with past nuclear weapons work and 
centrifuge work and implementing Section T.
    The U.S. and the E3 also agreed that an Iranian ICBM is 
intrinsically tied to the nuclear deal, and its development 
would be sufficient to justify the reimposition of draconian 
sanctions by the U.S. and the European Union.
    However, as we all know, they could not agree on the sunset 
issue and how to structure the reimposition of sanctions if 
Iran augmented its enrichment program. However, the E3 did 
agree that the growth of Iran's enrichment program was a grave 
security threat.
    Overall, the negotiationshelped clarify many transatlantic 
areas of agreement on the future of the underlying issues of 
the JCPOA. The partial agreements can be a basis for ongoing 
collaborative work with Europe as the Trump administration 
builds its coalition against Iran's most threatening behaviors.
    One development that confirmed the E3 U.S. agreement on the 
need to improve inspections in Iran was Israel's dramatic 
revelation on April 30 about Iran's hidden nuclear weapons 
archive. The project, the work, the archive mostly focused on 
the AMAD Project and showed that it was indeed halted in 2003 
or 2004, but it carried on. Iran carried on in a more research-
oriented fashion afterwards aimed at eliminating scientific and 
engineering bottlenecks in developing nuclear weapons and 
increasing know-how about them.
    The new information makes the sunsets far deadlier, as the 
document show that Iran's nuclear weapons program is both more 
organized and more advanced than previously thought, allowing a 
faster dash to the bomb.
    What is new in the archive? I have had two briefings by 
Israeli intelligence officials as of today, certainly read the 
public information. I would like to just list some of the 
information that's new that was not known before.
    The number and kilotons of nuclear weapons sought by Iran, 
the specific amount of highly enriched uranium and nuclear 
explosives to that design: that information was not available 
to the IAEA previously. Blueprints for the production of all 
the components of nuclear weapons; the location of planned 
nuclear weapons test sites: there was some information on that, 
but it was more conceptual than concrete. Details about a 
second building at the Parchin site involved in high-explosive 
work related to nuclear weapons in an explosive chamber; it is 
called the Taleghan 2 site. Taleghan 1 is the site where we 
know well, where the explosive bunker is that the IAEA visited. 
Taleghan 2 has not been visited by the inspectors.
    There's much more detail about Iran's massive work on 
uranium metallurgy, including ample evidence of Iran having all 
the equipment for all the work needed in a nuclear weapon's 
uranium metallurgy program.
    The information also shows that Iran made all the uranium 
metal components with surrogate materials. Iran did do small 
scale uranium processing for a neutron initiator for a nuclear 
weapon. That was also not known.
    There is now direct evidence that the secret Fordow 
enrichment site, which was exposed in 2009, was being built to 
make weapon-grade uranium.
    There's an image of a device to assemble the central core 
of a nuclear explosive using a surrogate metal material, and 
the Netanyahu briefing showed an animation of that. 
Subsequently, the Israelis investigating the archive found a 
picture of the actual assembly device.
    There is additional equipment that Iran must potentially 
collar under Section T of the Iran nuclear deal, and I could go 
on. And I am only representing a small fraction of the 
information in there because much of the information would be 
considered highly classified and not subject to public release 
by myself or--and certainly not by the Israelis.
    And so the new information adds most of the missing pieces 
to the puzzle of Iran's past nuclear weapons program and raises 
troubling assessments about Iran's intention to use this 
archive to build nuclear weapons in the future.
    The conditions of the existence of this archive and the 
extent of the information in it suggests that Iran has been 
violating the JCPOA and the spirit of the Nuclear Non-
Proliferation Treaty.
    Under the NPT, Iran should be rigorously challenged why it 
possesses and maintains such an archive while simultaneously 
refusing to allow the IAEA to visit military sites and 
personnel named in the archive. The new information makes it 
more urgent to fix IAEA inspections in Iran even if the JCPOA 
falters.
    Iran is a still of a signatory to the nonproliferation 
treaty and its comprehensive safeguards agreement requires Iran 
to cooperate with the IAEA over determining whether its program 
is purely peaceful.
    The United States should work with its allies, and I think 
they would find willing partners in Europe, to raise the issue 
of Iran's past and possibly ongoing nuclear weapons program at 
the IAEA Board of Governors.
    The new information argues for putting much more pressure 
on Iran to allow the IAEA to do its job under both the JCPOA 
and the comprehensive safeguards agreement.
    If Iran refuses, then the JCPOA should be discarded by all 
and the world should unite and return to a pressure campaign, 
including the reimposition of all sanctions.
    Thank you. I am sorry for going over.
    [Prepared statement of Mr. Albright follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. I thank the gentleman.
    The chair now recognizes Mr. Pregent for 5 minutes.

                  STATEMENT OF MICHAEL PREGENT

    Mr. Pregent. Thank you. Chairman DeSantis, Ranking Member 
Welch, and distinguished members of the Subcommittee on 
National Security. On behalf of the Hudson Institute, I am 
honored to testify before you today.
    I just want to say upfront, there would be an Iran deal in 
place today if the Iranian regime wasn't so blatant in its 
violations of existing U.N. Security Council resolutions, 
violations fueled by the JCPOA.
    There would still be an Iran deal in place today if the 
regime hadn't continued and accelerated its illegal ballistic 
missile program, a violation of existing U.N. Security Council 
Resolutions.
    There would still be an Iran deal in place if the regime 
didn't use commercial aircraft to deploy Islamic Revolutionary 
Guard Corps Quds Force advisors in its militias to Syria, 
another violation of existing U.N. Security Council 
Resolutions.
    There would still be an Iran deal in place today if the 
regime stopped providing funds and lethal aid to Hamas, the 
Houthis, and Hezbollah--again, a violation.
    There would still be an Iran deal in place today if the 
regime hadn't empowered and increased the lethal and financial 
aid to existing IRGC Quds Force militias and created new ones 
that threaten Americans in Iraq and Syria.
    The regime's maligned activities are the reason the JCPOA 
is no longer in place. The regime's actions continuously 
demonstrated a willingness to cheat out in the open on existing 
U.N. Security Council resolutions while defenders of the regime 
and defenders of the Iran deal said they were complying in the 
shadows with the JCPOA.
    We would have to believe that the regime is good when no 
one is looking and somehow dismiss its cheating behavior on the 
international stage and disregard it as an indicator of the 
regime's actual intentions.
    Critics will argue that the Iran deal was not meant to curb 
Iran's regional destabilizing activities and that it was simply 
an arms control agreement. The problem with that argument is 
Iran saw the Iran deal as a vehicle to reactivate its 
destabilizing terror logistics and operations networks.
    The JCPOA giveaways and Annex 2, that Rich mentioned, 
enabled, fueled, and allowed the regime to accelerate its 
destabilizing activities. Annex 2 delisted banks that fund 
terrorism. Annex 2 delisted shipping lines that moved weapons 
to terrorist organizations. Annex 2 delisted Qasem Soleimani 
and other individuals that train, arm, and direct terrorist 
groups and build new terrorist organizations.
    Critics of the JCPOA were not surprised to see the regime 
step up its destabilizing activities. All you had to do was 
look at Annex 2 and see what the regime asked for and received.
    The regime saw the Iran deal as a way to fuel its regional 
destabilizing strategy, become an economic powerhouse, become 
the premier conventional military threat in the Middle East, 
and, at the end of the sunset clauses, become a weaponized 
nuclear power.
    Critics argue that walking away from the Iran deal would 
cause Iran to increase its destabilizing activities and rush to 
a bomb. Not only did the regime increase its activities under 
the protections of the Iran deal, it expanded its reach into 
Lebanon, Bahrain, Yemen, and cemented its reach and influence 
in Iraq and Syria.
    Iran has been doing for years what critics say the regime 
will do if the U.S. walked away from the JCPOA. Iran became 
more dangerous under the protections of the JCPOA.
    Since the implementation of the JCPOA, the IRGC Quds Force 
has amassed upwards of 50,000 militia members in Syria, from 
Lebanon, Iraq, and Afghanistan. They are there at the direction 
of the IRGC Quds Force to shore up Assad and threaten and U.S. 
and Israel.
    Iran has increased Hezbollah's capability to target Israel 
with more advanced and precision-guided rockets and missiles. 
Hezbollah is now operating at the brigade level. They are able 
to do combined operations in this theater because of the IRGC 
Quds Force.
    The IRGC Quds Force along with Lebanese Hezbollah have 
introduced lethal capabilities to the Houthis in Yemen that 
threaten international shipping lanes and Saudi Arabia with 
missile and rocket attacks.
    Iran has increased funding and lethal capability of IRGC 
Quds Force militias that have killed Americans in the past and 
pledged to do so again.
    Since the implementation of the JCPOA in 2015, the IRGC 
Quds Force has created additional militias, ones that are being 
sanctioned now by the House and by the Senate, Kataib Imam Ali 
and Harakat Nujaba.
    The IRGC has increased lethal aid to the Taliban in 
Afghanistan and is behind fomenting the internal sectarian 
divisions with U.S. Arab allies.
    The IRGC is fomenting sectarian strife in the Shia enclaves 
of Saudi Arabia and Bahrain. And if Iran rushes to a bomb, they 
lose Europe; they lose Russia; they simply lose. Russia will 
not tolerate a nuclear regime on its border. The U.S., Israel, 
and our Sunni regional allies will not allow Iran to rush to 
the bomb. But wait.
    In the preamble of the JCPOA, you have to go down three 
sections, and you will see this promise by Iran. Iran reaffirms 
that under no circumstances will Iran ever seek, develop, or 
acquire any nuclear weapon. So, basically, you just have to go 
to the preamble, three references down, to see that Iran deal 
itself was based on a lie.
    Iran's currency has lost 60 percent of its value since 2015 
in the JCPOA because they squandered the windfall of cash to 
promote destabilizing activities instead of focusing on its 
economy.
    Critics argue that Europe will pick Iran over the United 
States. Every day, we see European banks and businesses 
withdrawing from deals with the regime. Itis simple. They are 
picking the $20 trillion economy over a shrinking $400 billion 
economy.
    Iran is now asking for more concessions and promises of 
investment from Europe to no avail, without making any 
concessions on its ballistic missiles, sunset clauses and 
adventurism.
    [Prepared statement of Mr. Pregent follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. We'll let you put that for the record. We are 
just running over, so I want to make sure we get everyone in. 
So thanks for that and we'll----
    Mr. Pregent. Sure, sure, sure.
    Mr. DeSantis. So, Dr. Walsh, 5 minutes.

                 STATEMENT OF JIM WALSH, PH.D.

    Mr. Walsh. Thank you. Mr. Chairman, Mr. Ranking Member, and 
members of the committee, it is an honor to appear again before 
your committee.
    In written testimony, I address a number of different 
issues, including the ones raised by my colleagues. But in oral 
testimony, I want to focus on the negative consequences of 
violating the agreement for U.S. national security and 
America's standing in the world.
    My summary judgment is the JCPOA successfully address the 
single most important American national security interest in 
the Gulf, namely preventing Iran from acquiring nuclear 
weapons. By violating the agreement and having no real strategy 
to replace it, the administration has increased the risk of 
nuclear proliferation in the Middle East, raised the 
probability of military conflict between the U.S. and Iran, 
undermined America's single most important national security 
alliance, and likely worsened the very problems the 
administration said it was trying to solve. Iran's regional 
activities, its ballistic program, missile program, et cetera.
    There are good reasons why Secretary of Defense Mattis and 
CENTCOM Commander Votel, who is responsible for Iran in that 
region, men who may have to respond to what happens next, have 
both argued for staying in the JCPOA as have Chairman Royce and 
Chairman Thornberry.
    Number one, the decision was poorly thought out, leaving 
the U.S. no strategy and unprepared for what would come next. 
British Foreign Secretary Johnson lamented that, quote, ``plan 
B does not seem well developed at this stage.'' He said that 
the day before the President's announcement.
    For his part, the President admitted that if he were the 
Iranians, he probably wouldn't negotiate with the U.S. under 
these circumstances. That was President Trump who said that in 
his announcement.
    The U.S. has gone from being part of the strongest 
multilateral nonproliferation agreement in nuclear history to 
no strategy, few friends, no timetable for achieving 
objectives, and Iran now free to advance its civilian nuclear 
program.
    Indeed, more than one observer has suggested that scuttling 
the JCPOA would, quote, ``mainly help Iran.''
    Number two, it increases the risk of war and proliferation 
in the Middle East. By attacking the JCPOA, the administration 
has both improved Iran's capability to pursue nuclear weapons 
by removing restrictions and has created conditions that might 
very well lead to that outcome.
    The President's decision has allowed Iran out of its 
nuclear box, and now threatening Iran making demands that no 
country would ever agree to and loose talk that sounds like 
regime change increases the pressure on Iran to consider its 
nuclear options, the very opposite of what is in U.S. national 
security interest.
    Now, if Iran begins taking steps, reintroducing 
centrifuges, reducing IAEA access, there would be an immediate 
public outcry. And many of those who advocating ditching the 
JCPOA will be the very same people demanding military action, 
despite the fact that it was their policies that got us here in 
the first place.
    Number there, undermines European alliances. Americans 
fought and died in World War I and World War II, wars that 
resulted in millions of deaths and the destruction of Europe. 
Coming out of the ashes of World War II, the Atlantic and 
European alliances have been the single most important 
instrument for America's national security.
    The administration not only ignored requests of our allies 
to stay in the JCPOA, it is now threatening sanctions against 
European firms if they continue to abide by the agreement. Let 
me repeat that. The United States of America is threatening to 
punish our European allies if they refuse to violate the 
agreement.
    There was a time when America was the leader of the free 
world. Leadership is when you take action and are followed by 
others who share your views and have confidence in your 
leadership. Leadership is not walking away from commitments and 
then threatening your friends if they don't do the same.
    Not a single country followed us out of the JCPOA, not one. 
That is not leadership. That is not making America great. That 
is making America isolated.
    Number four, the problems of Iranian military spending, 
ballistic missiles, regional activities, human rights will be 
worse, not better, as a result of this decision. Will Iran, in 
the aftermath of U.S. actions, feel more threatened or less 
threatened? It would seem likely that it will feel more 
threatened for the reasons discussed above. That appears to be 
the President's objective.
    Now research and scholarship and security studies would 
predict that, on average, as countries feel more threatened, 
they are more likely, not less likely, to spend money on their 
military and to develop weapons like missiles. They are more 
likely, not less likely, to hold their allies close in 
anticipation of a conflict and more likely to undermine their 
adversaries to prepare for coming conflict.
    Mr. Chairman, Ranking Member, and members of the committee, 
I want to thank you again for the opportunity to appear before 
you on a topic of utmost importance for U.S. national security 
and the security of our friends and allies.
    The JCPOA was a singular nonproliferation achievement that 
was years in the making. In 1 day, the President has undercut 
it. Letting Iran out of its nuclear box and setting off a 
series of events that could bring war and nuclear proliferation 
to a region that needs neither.
    These developments will pose new challenges for America's 
national security, and the American people will hold Congress 
accountable for those results.
    I remain committed to working with you to protect the 
American people and our friends abroad. I look forward to 
conversations about those dangers and challenges that lie 
ahead. Thank you.
    [Prepared statement of Mr. Walsh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. I thank the gentleman.
    Dr.Rubin, 5 minutes.

               STATEMENT OF MICHAEL RUBIN, PH.D.

    Mr. Rubin. Chairman DeSantis, Ranking Member Welch, 
honorable members, thank you for the opportunity to testify.
    My written testimony goes into considerable detail, but in 
the interest of time, let me just highlight a few points.
    One, the JCPOA considerably eroded counterproliferation 
precedent set by both South Africa and Libya.
    Two, while some might argue that sunset clauses exists in 
some other treaties, what makes the JCPOA different is that it 
left Iran with an industrial scale nuclear program and more 
centrifuges at its disposal than Pakistan had when it built, 
not a bomb, by an arsenal.
    Three, what Hassan Rouhani has said in Persian about 
motivation and strategy contradicts what Iranian diplomats 
often say in English. I should also note that it was during the 
so-called dialogue of civilization that Iran built the covert 
aspects and worked on a nuclear warhead design, not at a time 
when it was under threat. And this is something which Hassan 
Rouhani openly bragged about in Persian.
    The JCPOA was never meant to be a get-out-of-jail-free card 
on other Iranian malfeasance. It is a sense of impunity in 
Tehran that has sparked Iranian aggression and heightened the 
risk of war.There are three major components to a nuclear 
weapons program: enrichment, warhead design, and delivery.
    U.N. Security Council Resolution 2231 reversed precedent on 
ballistic missiles. It is imperative that the United States 
stop that program. The precedent for unilateral and 
extraterritorial sanctions was set by the Clinton 
administration in multiple executive orders and by Congress 
with the Iran-Libya Sanctions Act. The same ``sky is falling'' 
arguments were voiced then as now, and, happily, they are just 
as false.
    As I detail in my written testimony, there are cases where 
Iran succumbed to pressure to cease rogue behavior. There is no 
reason the goals outlined by Secretary of State Pompeo should 
not be embraced in a bipartisan fashion. There is no reason to 
rationalize Iranian terrorism or regional aggression, for 
example.
    The JCPOA unleashed a cascade of proliferation as regional 
states recognize that the agreement did not achieve its stated 
goals. It is counterfactual to argue that withdrawal from the 
JCPOA is what motivates Saudi Arabia to pursue a nuclear 
option. It is silly and an affront to the constitutional 
process to suggest that the JCPOA is a treaty.
    Don't trust me on that. Julia Frifield, Assistant Secretary 
of State for Legislative Affairs under Secretary of State John 
Kerry, said it was unsigned, and I quote, ``neither a treaty 
nor an executive agreement.''
    To suggest any U.N. Security Council Resolution becomes a 
treaty equal to Senate ratification is dangerous given the 
tendency of the U.N. to indulge in the base's anti-Americanism.
    Look, democracy is the best system out there, but the 
democratic process can be messy. It is misanalysis to fail to 
understand in a system like Israel's that some people are 
motivated by personal animus towards Israel's leaders and their 
own internal partisan battles, nor is it wise to assume that 
every person who has held a position is qualified to end 
debate.
    Take for example Danny Yatom. His tenure at Mossad ended in 
2001. Likewise, when I lived in Iran, the Iranian press 
constantly brought up former U.S. Attorney General Ramsey 
Clark's condemnation of U.S. policies. That he was a former 
high-level official didn't necessarily imbue him with great 
expert judgment.
    Here is the point. We can debate whether or not Trump 
should have walked away from the JCPOA, but regardless, whether 
he did so or not, it would have been necessary to focus on the 
future and develop a strategy that confronts the challenge that 
Iran still poses on a number of fronts and fill the loopholes 
left by the JCPOA.
    The U.S. should not get sucked into a Riyadh versus Tehran 
debate but rather should counter the ideological export of 
extremism, whether it comes in a Sunni form or whether it comes 
in a Shiite form.
    I should note, however, that the problem here is that both 
the Iranian constitution and the founding statutes of the 
Islamic Revolutionary Guard Corps define the purpose of Iran to 
export revolution, which in a very public debate in Persian 
back in 2008 was concluded to mean a more violent kinetic 
aspect as opposed to a soft power aspect of export of 
resolution. Basically, it meant supporting terrorist groups.
    Now, when it comes to recommendations, I outline these in 
considerable detail as to a broader strategy. And any strategy 
should have diplomatic, informational, military, and economic 
components. But in addition to some of the technical issues in 
the JCPOA, we could do much more, for example, to support 
independent trade union movements inside Iran. I do think the 
Bush administration missed a Lech Walesa moment back in 2005 
when Iranian bus drivers created the first independent trade 
union there.
    We could also invest a great deal in anticensorship 
technologies which Tiananmen Square refugees have created, and 
we can remove U.S. aircraft carriers from the Persian Gulf to 
make them invulnerable to Iranian swarming small boats while at 
the same time maintaining the ability to reach out at Iran 
should they engage in hostile behavior.
    And, with that, let me thank you.
    [Prepared statement of Mr. Rubin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. I thank the gentleman.
    The chair now recognizes himself for 5 minutes.
    Is there any disagreement, I mean other--maybe, perhaps 
Dr.Walsh, but the rest of the witnesses, do you all agree that, 
regardless of whether you think the President should have 
withdrawn or not, that it was not binding on him. It was not a 
treaty. It was not U.S. law and effectively it was a political 
agreement that he could withdraw from, correct?
    Mr. Rubin. Yes.
    Mr. DeSantis. You don't believe that Dr.Walsh? You think it 
was binding?
    Mr. Walsh. I don't think it was binding. I think----
    Mr. DeSantis. You said he violated it. So the question is, 
and I know you believe that it was good policy to stay in it, 
but do you have a qualm with us saying: Look, he had a right to 
do it. We live in a representative government. We have a treaty 
provision. We have executive agreements that could be read. 
That choice was not taken. And when you live by that sword, you 
die by that sword.
    Mr. Walsh. First, Mr. Chairman, let me say that, when I 
testified last time, I hope you got the message I passed on to 
your staff, which I very much appreciated in these difficult 
times how I was treated in our last hearing.
    Mr. DeSantis. Oh, sure.
    Mr. Walsh. And we really looked forward to returning.
    I would say a couple of things very briefly.
    If you ignore the U.N. Security Council Resolution part 
about that, and we can have a legal argument about that, if we 
ignore that part, which I am willing to do, I would say, sure, 
there's a difference between a treaty and a political 
agreement, but we have done a lot. You know, PSI was a similar 
agreement.
    Mr. DeSantis. Well, look, I get that. And I am going to 
probe you a little bit about that, but I just want to lay that 
out there because there was a lot of criticism saying: Oh, my 
gosh, we are violating an agreement.
    It was not an agreement that was binding. We had that 
debate in Congress. It should have been submitted as treaty. At 
a minimum, it should have been an executive agreement, and it 
wasn't.
    Let me ask you this, Dr.Walsh: You've made the claim that 
the withdrawal increases the likelihood of proliferation. Why, 
though, do you think that the people in the region were so 
opposed to the deal--Saudi Arabia, the Emirates, the Israelis--
and that they cheered the President because I think that they 
want to see more tougher economic sanctions? They think that 
will make Iran less able to dominate the region.
    So I know the Europeans, I think your point is well taken. 
Obviously, they agree with you.
    Mr. Walsh. Yes.
    Mr. DeSantis. But how would you respond to the people in 
the Middle East, in that neighborhood----
    Mr. Walsh. Yes.
    Mr. DeSantis. --who think it was a bad deal and are glad 
the President took the action they took.
    Mr. Walsh. Well, first of all, I would disagree, not all 
the Emirates. And, secondly, I think there are more countries 
in the region than Israel and Saudi Arabia, although that's 
what we tend to pay attention to.
    I think, clearly, Saudi Arabia is in a death struggle with 
Iran. There is this giant rivalry, and obviously, the same 
thing is going on with, you know, there's a big rivalry there 
with Israel.
    Those countries wanted sanctions. They didn't care as much 
about the nuclear issue as weakening Iran, making it as weak as 
possible and as vulnerable as possible. And I understand that 
it is a strategy, but the other states in the region, Europe, 
us, the rest of the world, the international community, all 
thought it would be--despite Israel's and Saudi Arabia's 
problems with Iran but taking a larger view--it is not about 
whether they are sanctioned or not sanctioned; it is about 
whether they have a nuclear weapon or not. That is obviously--
--
    Mr. DeSantis. I think they all care about that, obviously.
    Well, Dr. Rubin, the Middle Eastern countries, can you 
speak to their view of this deal and their view of the 
President's action?
    Mr. Rubin. Without exception, or let me say, every moderate 
regime or U.S. ally was very much opposed to the Joint 
Conference Plan of Action. They very much resented that they 
were not consulted to give their expertise on closing some of 
the loopholes. That was a missed opportunity on the part of the 
previous administration. There were regimes out there, for 
example, the Syrian regime of Bashar al-Assad, which was much 
more interested and much more favorable to the JCPOA, as was 
some of the more harder line Shiite elements inside the Iraqi 
Government.
    Mr. DeSantis. Mr. Goldberg, my friend from Vermont 
mentioned, you know, like regime change as if--I mean, I don't 
think--I have not heard anyone say: Go in there and forcibly 
remove the Iranian regime.
    On the other hand, there are vast swaths of Iranian society 
that are dissatisfied with living under an Islamist tyranny. 
And those are people, I think, that are probably pro-Western 
and that are people that we should have common cause with.
    So dealing with the sanctions element, cutting off the 
money but then trying to empower, whether it's through social 
networks or other things, those people, isn't that a good 
policy? I mean, don't we want this regime to being weakened? It 
is not representative of the society. And there are people 
there that are trying to stand up to it, and we should have 
their back.
    Mr. Goldberg. Mr. Chairman, it's not just good policy; it 
is U.S. policy, as voted on by bipartisan majorities in both 
Chambers over many years. We have legislation in law. We have 
sense of Congress language. We have sanctions for these issues. 
We have funding for these issues in the Appropriations 
Committees. This has been our policy.
    The term regime change has become a loaded political term. 
Let's just get that out of the way. We know that. This is in a 
post-Iraq war environment, and the words ``regime change'' are 
try to get some sort of gotcha moment of, do you want to 
invade? Do you want this to be like the war in Iraq?
    There is no one, I believe, on this panel and certainly in 
the administration, who is coming anywhere near such a policy. 
That is not the policy. We need to look more sort of a Cold War 
era policy. What was the Reagan administration's victory 
policy, rollback policy towards the Soviets? We definitely 
wanted behavioral change. We wanted to roll them back 
throughout the world. We want to see the same sort of 
behavioral change out of this regime, but we will also benefit 
greatly if one day internally, peacefully, the people of Iran, 
people who are out in the streets, the people who are screaming 
out for freedom for some sort of government that represents 
them, that makes their lives better, the government that 
doesn't spend money in Syria or Yemen but spends money on them 
to get them jobs and higher incomes. If that happens peacefully 
through our policies, that's great; that's good for U.S.
    Mr. DeSantis. My time is expired. Let me wave in, I would 
like to recognize Mr. Zeldin and Mr. Donovan, both of New York. 
And I ask unanimous consent that, though they're not on the 
committee, that they be able to participate in the proceedings.
    And, without objection, so ordered.
    And it is now my pleasure to recognize my friend from 
Vermont, Mr. Welch, for 5 minutes.
    Mr. Welch. Mr. Goldberg, let me just start with you on this 
question of getting this regime change issue off the table 
because no one seriously is talking about that.
    Have you ever heard of Josh Bolton?
    Mr. Goldberg. Josh Bolton?
    Mr. Welch. Or Mr. Bolton. What is his name?
    Mr. Goldberg. John or Josh?
    Mr. Welch. John, John.
    Mr. Goldberg. The former chief of staff for the White House 
or the National Security Advisor--John Bolton, yes.
    Mr. Welch. And on FOX News, he said that our goal should be 
regime change in Iran. Should I take him seriously or you 
seriously?
    Mr. Goldberg. Again----
    Mr. Welch. No, this is a serious question.
    Mr. Goldberg. No, it is a very----
    Mr. Welch. You just waved it away. He is the National 
Security Advisor for the President. He said to the American 
people that our goal should be regime change in Iran. Now, you 
just want to blow him away and say that he didn't mean it.
    Mr. Goldberg. No, Congressman I would say multiple things 
in response.
    Mr. Welch. All right. What about Rudy Giuliani?
    Mr. Goldberg. Did you want a response?
    Mr. Welch. Look, I am asking you to respond whether we 
should take Mr. Bolton and now Mr. Giuliani seriously.
    Mr. Giuliani said that the President is as committed to 
regime change as we are. Do I take Mr. Giuliani seriously?
    Mr. Goldberg. Congressman, are you for repression of the 
Iranian people? Yes or no? No, I am asking a serious question. 
Are you for the repression and torture of people----
    Mr. Welch. There is no one in this Congress, no one in this 
country that condones repression anywhere by any dictator in 
any country. And you know that.
    I am asking the questions here. Rudy Giuliani or Goldberg? 
Who do we listen to about regime change? And you don't have to 
answer it because----
    Mr. Goldberg. I would listen to the President of the United 
States----
    Mr. Welch. Let me ask----
    Mr. Goldberg. --Secretary Pompeo and those who are 
empowered by the President right now.
    Mr. Welch. All right. Now does anyone seriously think that 
trust on the American side of Iran had anything to do with this 
agreement, that President Obama or Secretary Kerry, quote, 
``trusted the Iranians''? Or do they believe that Secretary 
Mattis was right, that there was no basis for trust? That is 
why there had to be very strong verifiable inspections. Anyone 
disagree with that?
    Mr. Rubin. I disagree.
    Mr. Pregent. I disagree.
    Mr. Welch. All right. So you disagree, Mr. Albright and Mr. 
Pregent, you disagree?
    Mr. Pregent. Yes, sir.
    Mr. Welch. So you think this is based on trust?
    Mr. Rubin. I can cite President Obama on this.
    Mr. Welch. Sir, I am just asking----
    Mr. Albright. I disagree that if President Obama did that, 
he--one of the problems in the JCPOA that developed was the 
Obama administration became an advocate for Iranian 
noncompliance. They would try to----
    Mr. Welch. Mr. Albright, here is the question: There is 
nobody here--and I was in favor of all of the Iranian 
sanctions, by the way, all of the Iranian sanctions, and I was 
in favor of this agreement, not that it was perfect, but it got 
rid of the nuclear weapons.
    Let me ask you a question about this: Under the agreement 
that has been now torn up, Iran has the choice to resume its 
nuclear activities. Let me ask this question: What is the 
option for the United States should Iran aggressively restart 
its activities towards building a nuclear weapon?
    Who on the panel would favor the use of military action at 
that point? Just raise your hands.
    You would.
    Mr. Pregent. Absolutely.
    Mr. Welch. Dr. Rubin?
    Mr. Rubin. As I detail in my written testimony, there are 
episodes of overwhelming pressure that have caused Iran to back 
down. That's what led to the release of the hostages in 1981. 
That's what led to the end of the Iran-Iraq war. I will let 
history be the precedent on this, Mr. Ranking Member.
    Mr. Welch. The President--let me just finish a minute. The 
President has tweeted that it's time for change in Iran, and 
the Secretary of State wrote that Congress must act to change 
the Iranian behavior and, ultimately, the Iranian regime. And 
you, Dr.Rubin, I understand have written that regime change is 
the only strategy short of military strikes that will deny Iran 
a nuclear bomb.
    So this question about what the implications are of a torn 
up deal are not idle questions. They are real. We are heading 
in a different direction. That is what's happening.
    Mr. Rubin. Are you----
    Mr. Welch. Now, here is the other question. I understand 
you think assassination is a tool as well, in your writing, and 
you were for that before it became, quote----
    Mr. Rubin. That's woefully imprecise to what I said, Mr. 
Ranking Member. Would you care to say? I know the article you 
are referring to. Would you like to specify a specific example?
    Mr. Welch. My time is running out.
    Mr. Rubin. Okay. Then be accurate.
    Mr. Welch. Let me ask this question. I know many of you 
have recommendations about what our policy should be. Do any of 
you know what our policy is?
    Mr. Goldberg. Yes.
    Mr. Welch. And it is what? Where is it? How come I don't 
know? How come the chairman doesn't know?
    Mr. Walsh. Mr. Ranking Member, I have heard most of my 
colleagues talk about why they don't like Iran and why don't 
they like the deal. That is fine. I am sympathetic to many of 
the things they say. I have not heard anyone talk about the 
fact that we don't have a strategy and that this puts us on a 
path to warfare, either by design, regime change, or we back 
into it as we respond to them beginning to reinstall their 
nuclear program.
    I would like to hear a lot more from my friends about how 
we will deal with that in the future because that is what 
General Mattis, that is what General Votel and the others fear 
and have to prepare for. And talking about why I don't like 
Iran isn't really going to get us anywhere.
    Mr. Welch. That is a straw man.
    Mr. Walsh. By the way, and on this issue of the Iranians, 
who everyone professes such great concern for, the Iranian 
people are not happy with us.
    Muslim ban, number one.
    Number two, a poll came out last month that asked the 
Iranian people--this was a private poll, not a government 
poll--how should we respond to the U.S. pulling out? This was a 
prospective poll. Sixty-seven percent of the Iranians said that 
Iran should retaliate?
    Why? Because they are rallying around their flag. They may 
not like the corruption. They may not like the economy, but if 
you threaten to attack their country, we are going to help the 
hardliners. We are not going to strike a blow for democracy.
    Mr. DeSantis. The gentleman's time----
    Mr. Welch. I thank the witnesses, and I yield back.
    Thank you, Mr. Chairman.
    Mr. DeSantis. The chair now recognizes the vice chairman of 
the subcommittee, Mr. Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you to the witnesses for being here today.
    Shortly after the Iran deal was concluded, President Obama, 
his administration, made repeated statements that Iran would 
be, quote, ``denied access to the world's largest financial and 
economic markets,'' end quote.
    Secretary of the Treasury Jack Lew reinforced this policy. 
Another Treasury official had stated that Iran would be, quote, 
``unable to deal in the world's most important currencies.'' 
That was Adam Szubin.
    Earlier today, America learned through a Senate 
investigation that President Obama's administration issued a 
license to deal in U.S. currency conversion of Omani rials at a 
bank in Muscat, that they could convert these billions of rials 
into billions of dollars and then euros, giving blanket access 
and providing key Iranian flow of funds that could be used for 
funding extremism and other troubling activity.
    Fortunately, no U.S. bank wished to comply with such an 
authorization. They were fearing fallout, not only in the 
financial industry, but they were fearing violation of current 
U.S. sanctions law. I guess my question, as we debate this 
handshake agreement, that was not an agreement with the 
American people--it was not done through a treaty; it was not 
done through consent of Congress when we had bipartisan and 
overwhelming resistance to the Iran deal--I guess my question 
would be this: First, to Dr.Walsh, a series of basic questions 
to frame up activity of Iran, I think, is important here. 
Should we curtail proliferation of terrorism or promote it?
    Mr. Walsh. Well, considering, Mr. Vice Chair, that I have 
spent virtually all my professional career working to prevent 
the spread of nuclear weapons and to undermine terrorism, I 
think my answer is pretty obvious on that one.
    Mr. Russell. Well, I am guessing, then, by your answer, it 
would be to curtail it then.
    Mr. Walsh. Absolutely.
    Mr. Russell. And having been a soldier most of my life and 
seeing Iran kill United States soldiers, including some of my 
colleagues, I would be in agreement.
    Mr. Walsh. As to General Mattis, who was CENTCOM Commander 
during that period and General Votel----
    Mr. Russell. But should we encourage nuclear cooperation 
with North Korea and Iran, or should we curtail that?
    Mr. Walsh. To my knowledge, and I have testified before the 
Congress on this, there was missile cooperation between North 
Korea and Iran, but not nuclear cooperation. There are lots of 
media reports, but the DNI has never said it. The IAEA has 
never said it. Congressional Research Services never said it. 
And I was unable in a survey of 1,000 media stories----
    Mr. Russell. Well, should we encourage this cooperation or 
deny it? We do know that----
    Mr. Walsh. What cooperation I guess is what I am saying?
    Mr. Russell. --North Korea, Iran, and Syria, I think that 
there is overwhelming evidence that there was cooperation, not 
only missile technology----
    Mr. Walsh. Nuclear, nuclear cooperation.
    Mr. Russell. Sure, we can talk offline.
    Should we strengthen the ability of the Iranian Republican 
Guard Corps to destabilize Iran's neighbors, or should we 
curtail that?
    Mr. Walsh. Absolutely curtail that.
    Mr. Russell. Absolutely. Despite Section 2, which had, by 
the way, 52 players that I identified and put on a deck of 
cards, and we were able to work with President Obama's Treasury 
administration to restore some of these back to the sanctions 
list. However, listening to all of the pundits for this 
agreement, they stated that there was no problem giving 
Soleimani and many of these industries and others sanctions 
relief.
    Mr. Walsh. Well, the intelligence community has said that 
sanctions relief did not go in large measure to the----
    Mr. Russell. Oh, we know that they used it for peaceful 
purposes. My last question would be----
    Mr. Walsh. Well, that wasn't my point but----
    Mr. Russell. --should we waive international and national 
financial standards on monetary exchange regarding these 
sanctions? Or should we maintain the strength of sanctions 
rather than creating the licenses to undermine financial 
markets?
    Mr. Walsh. Here is what I think: I think, of all the things 
you listed, only one is the most important. It is called the 
priority. That's denying Iran the ability to acquire a nuclear 
weapon.
    Mr. Russell. I see. So and all of the other things 
notwithstanding, we should undermine the credibility and our 
record on human rights. We should undermine the credibility of 
the United States when it comes to standing up for other 
people. We should undermine our allies. And worse, we should 
undermine American soldiers who had continued to----
    Mr. Walsh. Well, we are undermining allies now.
    Mr. Russell. If I may, reclaiming my time. One thing is 
crystal clear. When you make an agreement that the American 
people are overwhelmingly against--we are talking 60 percent 
plus. How I do know this? Just by numbers on the board through 
elected Representatives in Congress.
    This was a bad deal. It made us less secure, and we hear 
testimony after testimony with our neighbors, our allies and 
others, and yet we are led to believe that we are making the 
world less secure.
    Having the United States' credibility undermined makes the 
world less secure.
    Mr. Walsh. Which is what----
    Mr. Russell. I am sorry. I am out of time. And thank you, 
Mr. Chairman.
    Mr. DeSantis. The gentleman's time is expired.
    The chair now recognizes the gentleman from Georgia, Mr. 
Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    And I would like to associate myself with your remarks 
earlier. I completely agree that President Trump made the right 
decision in this. The Iran deal was flawed from the start. We 
needed a better agreement in 2015. We need a stronger agreement 
now. And we cannot idly sit by while Iran continues to build up 
its ballistic missiles and all the things that you have 
mentioned here today.
    Dr. Rubin, let me start with you with this. What kind of 
threat does Hezbollah and the Islamic Revolutionary Guard pose 
to Israel?
    Mr. Rubin. It poses an overwhelming threat.
    The deputy secretary of Hezbollah has said that he welcomes 
the opportunity for all the Jews in the world to relocate to 
Israel because it would save them the trouble of hunting them 
down and killing them elsewhere.
    Mr. Hice. All right. So we have a serious threat. What can 
the U.S. do to support Israel against this threat?
    Mr. Rubin. The Iranian strategy, as voiced by the Islamic 
Revolutionary Guard Corps, tried to overwhelm Israel missile 
defenses just by sheer number of the missiles, which are in 
Hezbollah or perhaps Hamas' hands.
    The preventive action would be to continue to support the 
interdiction of any missiles or missile parts. When it came to 
the aircraft deal, I should note that Iran, if you calculate 
the number of seats that Iran Air has and you compare it to the 
Boeing and Airbus deal, Airbus and Boeing were prepared to give 
Iran more than three times the annual capacity of Iranian 
flights putting them on scale of Qatar airlines or Korean Air. 
So, clearly, it wasn't in that case about passenger safety, 
which is why encouraging companies to scale back aid which 
could go to the Islamic Revolutionary Guard Corps is wise if 
our goal is to constrain the Islamic Revolutionary Guard Corps.
    Mr. Hice. All right. You mentioned the air. What about the 
naval aggression of Iran? What should be our role there?
    Mr. Rubin. With regard to the naval aggression, our 
presence matters. Now, I differentiate between our presence in 
general and our aircraft carrier presence, but when President 
Obama, for very good reasons, talked about a pivot to Asia, 
what many people in the Persian Gulf heard was a pivot away 
from us. And so, psychologically, there is a sense of 
abandonment among some of our GCC allies.
    Now, the reason I talk about taking aircraft carriers and 
pushing them more into the Arabian Sea is just to neutralize 
the threat posed by Iranian small boat swarming tactics where 
we can reach them from the Arabian Sea; they can't retaliate 
against us.
    Mr. Hice. So a stronger presence, be it our carriers or 
whatever, am I hearing you saying that would be a change from 
the Obama administration's approach?
    Mr. Rubin. Between 2003 and 2011, we had on average one 
carrier strike group in the Persian Gulf. I am sorry, between 
1991 and 2003, we had one. Between 2003 and 2011, we had, on 
average, two.
    What I am saying is we should continue with the destroyers 
and cruisers and amphibian LHDs in the Persian Gulf, but the 
aircraft carrier should remain outside.
    Mr. Hice. Mr. Goldberg, let me go to you. In your written 
testimony, you describe a maximum pressure strategy using 
multiple lines of effort there. What further sanctions do we 
need, in your opinion, and how do we know that these sanctions, 
financial sanctions, are working.
    Mr. Goldberg. Well, I appreciate the question, Congressman. 
And thank you all for your leadership on this in the past. It 
is going to be very important for this subcommittee and for 
other Members to conduct oversight over our enforcement to make 
sure that we actually do have a maximum pressure campaign that 
succeeds.
    We need to measure this by the liquidity crisis in Iran, 
the access of the regime to cash to hard dollars to hard euros. 
What we saw in the lead-up to the JCPOA, really the lead-up to 
the JPOA deal, the interim deal, was that, under the central 
bank sanctions, the disconnection of Iranian banks from the 
SWIFT, the sectorial sanctions that Congress enacted, we saw 
enormous pressure and stress of the regime, a balance of 
payments crisis emerging and a liquidity crisis.
    Because the mullahs have so mishandled their economy, even 
under the sanctions relief provided by the JCPOA, the economy 
is already in crisis. Really, the timing of the reimposition of 
sanctions for a maximum measure campaign couldn't be better. 
The rial is in free fall in Iran.
    And so, as we cut off banks from doing business with 
Iranian banks, as we pressure SWIFT to ensure that they 
disconnect Iranian banks as well, as all the sanctions come 
back on line, it will be very important for Congress to conduct 
oversight over that to make sure they are being enforced 
properly.
    Mr. Hice. So has the withdrawal of this deal had any effect 
on other European companies doing business with Iran?
    Mr. Goldberg. Absolutely. We have seen pretty much on a 
daily basis more and more companies, the large ones, getting 
out.
    You may have seen today, there is a lot of news reports of 
oil, imports from Europe going to be canceled due to our return 
of the oil sanctions. We have seen that the European Investment 
Bank, the Europeans were talking about maybe using the European 
Investment Bank as a replacement for private institutions to 
provide financing for those companies that wanted continue in 
Iran.
    Those leaders said, you know what? We don't want any part 
of that. Iran is too risky. Sanctions are too risky. We don't 
want to touch that.
    And I would point everyone to yesterday's speech by our 
Under Secretary for TFI at Treasury. She gave a great speech 
that really was an indictment of the Iranian regime's financial 
system, not because of the nuclear deal but because of the 
practices, the behavior of this regime. That is why most banks 
and most companies don't want to do business there anyway, and 
now with the return of U.S. sanctions and our oversight from 
Congress to make sure that it is properly implemented, the 
Iranian regime is going to be under enormous stress.
    Mr. Hice. Thank you, Mr. Chairman. Thank you to our 
panelists.
    Mr. DeSantis. The chair now recognizes the gentleman from 
New York, Mr. Zeldin, for 5 minutes.
    Mr. Zeldin. Thank you, Mr. Chairman.
    Thank you for the invitation to today's hearing.
    We obviously have a diverse group of speakers today. And I 
think it is important for us to learn lessons from what 
happened with the negotiation, with understanding the text of 
the deal and moving forward with, I am sure all five are, you 
know, concerned with the need to protect America's security at 
home and abroad. There might be a diversity of how to get 
there. And if you don't mind, I guess I will start with 
Dr.Walsh. And I just want to get some other perspectives in 
this.
    I understand that you are supportive of the deal. What in 
the deal have you identified as needing to get fixed?
    Mr. Walsh. Well, I agree that several of the provisions, 
the ideal case would be, had things worked out a different way, 
for us to have then, after a year or whatever, enter into 
negotiations for Iran for a follow-on agreement. That's a very 
common practice in international affairs; you have a temporary 
agreement. I mean, the NPT was that way. There are lots of 
agreements that way.
    You have an agreement, and then you build trust between the 
parties. You know, they see that we follow through on our 
promises. We see that they follow through on their promises. 
And then that become the basis for----
    Mr. Zeldin. I have a limited time.
    Mr. Walsh. --follow-on agreements.
    Mr. Zeldin. What would you want to see in there?
    Mr. Walsh. Pardon me?
    Mr. Zeldin. What would you want to see in the follow-on 
agreement?
    Mr. Walsh. In the follow-on agreements? I would have like 
to see some longer--I am happy to take 15 years on the sunsets, 
but I wouldn't have objected to longer periods before some of 
the obligations came off.
    Mr. Zeldin. Anything with regards to the verification?
    Mr. Walsh. I think, you know, Dave and I are good friends. 
He and I disagree slightly. When you read what the IAEA says, 
they say they are performing complimentary access inspections. 
That is what they said in their most recent statement. And so 
they are performing these inspections.
    Can we get better access? I would be all in favor of that. 
But they are reporting to the international community that they 
are able to do their job. But, of course, you would always want 
more and better inspection, if you can.
    Mr. Zeldin. Yeah, I think, you know, two very important 
aspects that we just touched on is with regards to the sunset 
provision, whether you are the most passionate supporter the 
nuclear deal or you are one of the most vocal opponents of it, 
the sunset provisions are very problematic.
    The verification agreement on top of what was said, I mean, 
the Iranians have said before, during, and after this 
negotiation that we will not have access to their military 
sites. AP reported----
    Mr. Walsh. And yet we do have. We do.
    Mr. Zeldin. Well, actually, that's not true. So, at 
Parchin, we went there. We found particles that required a 
followup. And the Iranians said that the IAEA would not be able 
to go back to Parchin to inspect those particles further. The 
Iranians have said that we will not have access to the 
nuclear----
    Mr. Walsh. We didn't have the additional protocol then----
    Mr. Zeldin. We have not gone to any military site. The 
Iranians are saying: You are not allowed to gain access to our 
military sites.
    And we have not gained access to any of their military 
sites. I am sorry. You are shaking your head.
    Mr. Walsh. Let me just say----
    Mr. Zeldin. What military sites have we been to?
    Mr. Walsh. Well, I can't name them, but all I know is----
    Mr. Zeldin. Well, are you saying that we have been to 
military sites?
    Mr. Walsh. Well, because I am not, you know, the IAEA 
doesn't--some of the stuff is done confidentially.
    My point is the agency works on cause. If they have 
reason--if they have suspicions about a site, they have full 
authority under the additional protocol to demand an 
inspection.
    Mr. Zeldin. Right. But they are not.
    Mr. Walsh. Well, no, they say that they have had access to 
all the sites they wanted to have. That is their language, not 
mine. And on sunsets, I would simply very quickly say----
    Mr. Zeldin. Yeah, with regard--you are not referring to 
military sites?
    Mr. Walsh. Yes, I am. Yes. Yes, I am.
    Mr. Zeldin. The Iranians have said----
    Mr. Walsh. I know they say stuff, but when it comes down to 
implementation, they have to follow the additional protocol 
like everyone else.
    Super quickly----
    Mr. Zeldin. But where can I go to source that?
    Mr. Walsh. I can give you the documents.
    Mr. Zeldin. You are saying that there's something that 
details all the military sites that IAEA has been able to 
access----
    Mr. Walsh. I can give you----
    Mr. Zeldin. --since implementation?
    Mr. Walsh. --today the statement by the IAEA that it has 
had access to every site that it has requested access to and 
that, additionally, it is under the additional protocol legally 
entitled to visit any military site.
    Mr. Albright. But they also, the inspector general just a 
couple days ago--and it was also on the latest safeguards 
report--said it would certainly be nice if Iran started 
allowing for access.
    Mr. Zeldin. They did. That's right.
    Mr. Albright. I think they got the message from the E3 U.S. 
negotiations they are not doing enough.
    They told Ambassador Haley they had 50 sites of concern; 
they had 200 to 300 sites of interest. They have not visited 
all those sites, by any means. They have not visited any of the 
sites that have been named in the nuclear archive that was 
recently discovered and unknown to the IAEA, and probably 
Western intelligence. So there's many sites they have not 
visited. They have pulled their punches, and now it is time 
that they stop.
    Mr. Zeldin. Is there anything on the verification front 
that you all, the other four, Dr.Walsh, who have had a chance 
to talk for a while. Anything anybody else would like to add as 
far as improvements that need to get made with regards to the 
verification?
    Mr. Albright. Well, one is that it is not true that JCPOA 
was fully verified. I mean, a lot of these things happened 
behind the scenes; the IAEA doesn't tell the whole story. One 
of the issues has been Section T, which is a ban on nuclear 
weapons development activities that is still not verified. I 
mean, there are conditions in there that involve equipment, 
dual-use equipment that is known to exist in Iran. Additional 
dual-use equipment has been identified in the nuclear archive 
that's subject to Section T. It should be declared by Iran, 
subject to joint commission approval, and monitored by the 
International Atomic Energy Agency, and that is not happening.
    So I think to say that somehow this deal is fully verified, 
it is the best deal in the world, the best verified deal, is 
simply not true. And I think it is time to end this kind of 
simplistic talking point of the JCPOA proponents and get down 
to, how are we going to fix this situation now?
    Mr. Zeldin. I appreciate that. We can go on a lot further 
here with regards to the verification. I still, as a Member of 
Congress, we have not received copies of the verification 
agreement that was between the IAEA and Iran. We have read 
Associated Press reports that talk about Iran collecting some 
of their own soil samples, inspecting some of their own nuclear 
sites. But I think, with regards to verification as well as, 
you know, the conversation on the sunset provisions, we have 
some improvements need to get made. And, hopefully, all five of 
you would be able to agree that we can make this better.
    Mr. DeSantis. The gentleman's time is expired.
    The chair recognizes Mr. Donovan for 5 minutes.
    Mr. Donovan. Thank you, Mr. Chairman, for allowing me the 
opportunity to ask questions at this hearing today regarding 
protecting America from a bad deal, ending U.S. participation 
in the nuclear agreement with Iran.
    There are a few facts I would like to highlight as a 
preface to my question.
    Fact, the Joint Comprehensive Plan of Action, according to 
the Obama administration, was a political commitment, not a 
treaty. As such, the Iran deal imposed no international legal 
obligation, nor has any president after President Obama 
including President Trump, legally bound by the Iran deal 
because it was a political agreement, not a legal agreement.
    Fact two, under the JCPOA, Iran has gone on a shopping 
spree, spending money, not on its own domestic needs but 
instead on supporting terrorists and dictators.
    Iran has particularly focused its attention on Iraq, Syria, 
and Lebanon. What do Iraq, Syria, and Lebanon hold in common 
for Iran? Iraq, Syria, and Lebanon together represent a 
geographic land bridge for Iran that gives it a clear direct 
path to Israel.
    Fact three, the Iran regime wants to destroy Israel. At 
every turn, the Iran regime has only fanned the flames of 
violence in the Middle East to serve its own hateful tremulous 
agenda.
    Ayatollah Khamenei, just this past Sunday, stated on 
Twitter that, quote, ``Israel is a malignant, cancerous tumor 
in the West Asian region that has to be removed and eradicated; 
it is possible, and it will happen,'' end quote.
    President Trump's Administration has laid out 12 imminently 
reasonable requirements for a new deal with Iran, which include 
Iran ending its support for terrorist organizations and ending 
its threat against Israel and other nations in the Middle East.
    There are certainly differences in our political beliefs 
here today. However, I, my Republican colleagues, the Trump 
administration, and many of my Democratic colleagues have at 
least one thing in common: strong support for our ally Israel.
    Congressman Sarbanes stated that, quote, ``Israel is one of 
our closest and most important allies,'' end quote.
    Congresswoman Demings said, quote, ``Israel's security is 
essential for the future of the Jewish people and the security 
of the United States,'' end quote.
    Congressman Lynch stated that, quote, ``the state of Israel 
is one of our most important allies,'' end quote.
    Congressman Engel agrees that the biggest danger in 
Israel's security is Iran. He stated, quote, ``Today, the most 
serious danger Israel must confront emanates from Iran. It is 
simply unacceptable that a country with a history of supporting 
terrorism and calling for the destruction of Israel could have 
a nuclear weapon,'' end quote.
    Minority Leader Nancy Pelosi has noted that, quote, ``there 
is no greater political accomplishment in the 20th Century than 
the establishment of the state of Israel,'' end quote.
    As you could see, across the aisle, we all want to see 
Israel survive and thrive, and agree that Iran's aspirations to 
annihilate Israel are not acceptable.
    Mr. Pregent, given that the large bipartisan support for 
Israel, how does the United States withdrawing from the Iran 
deal enhance Israel and the United States' national security, 
if you may?
    Mr. Pregent. Well, thank you for the question. I think 
what's important is to see what Russia is actually doing and 
not doing in Syria.
    Since our withdrawal from the Iran deal, we have seen 
Russia sit on its hands while Israel was able to conduct 4- to 
6-hour airstrikes against the infrastructure that Qasem 
Soleimani put in place in Syria as an offensive capability 
against Israel, doing that under the protections of the JCPOA.
    Doing that, putting those systems in place over the last 3 
years, that Israeli airstrike that took place between 4 to 6 
hours set back Qasem Soleimani offensive capabilities in Syria 
3 years, and it demonstrated that in a post-JCPOA world, Iran 
is shedding support.
    We are looking at what Russia is doing in Syria. We are 
looking at what the World Bank and the IMF are telling private 
sector businesses from Europe and the United States to not do 
business in Iraq because that is where Iran is looking to 
offset U.S. sanctions by penetrating Iraqi economic sectors.
    Walking away from the Iran deal has actually made the 
Middle East less dangerous. I argue that if Iran takes an 
aggressive stance, if they start increasing their activities, 
they will lose European support. If they rush to a bomb, they 
are going to lose Russian support. Russia does not want the 
Islamic Republic to have a nuclear weapon on its border.
    To your question about the regime change. I would ask the 
Iranian people what they think about regime change. The Iranian 
people have said that the regime has squandered the economic 
benefits of the Iran deal: $150 billion spent on adventurism, 
spent on destabilizing the Middle East and trying to develop an 
offensive capability against Israel instead of focusing it on 
their domestic economy.
    The regime is in free fall. This began under the 
protections of the JCPOA. We are now out of it. Iran is in a 
weaker position. We now have leverage, and our European allies 
are going to pick the U.S. especially Israel--correction--Iran 
takes aggressive actions in the region.
    Mr. Donovan. Thank you very much for your insight. Mr. 
Chairman, I yield back the remainder of my time.
    Mr. DeSantis. The gentleman yields back.
    I want to thank all the witnesses for appearing before us 
today. The hearing record will remain open for 2 weeks for any 
member to submit a written opening statement or questions for 
the record.
    And if there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
